No.

IN THE

(Umirt uf fife

JsHates

Martin James Kipp,
Petitioner,
v.

Ron Broomfield, Acting Warden,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Cuauhtemoc Ortega
Federal Public Defender
MARK R. DROZDOWSKI*

Celeste Bacchi
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org
Attorneys for Petitioner
* Counsel of Record

CAPITAL CASE
QUESTION PRESENTED
At Martin Kipp’s capital trial, the prosecutor presented evidence that

Kipp worshipped Satan and concluded his penalty-phase closing by asserting

that Kipp “has murder in his heart, has Satan [in] his soul.” After three days

of deliberations, the jurors voted for death only after one of them brought a
Bible into the jury room and read several passages from it to the others,

including the phrase, “an eye for an eye.” Eight of the jurors self-identified as

Christian. The question presented is:
Whether clearly established federal law requires that a habeas

petitioner’s claim that his constitutional rights were violated because a juror
read passages from the Bible to other jurors during capital-sentencing
deliberations be analyzed under the presumed prejudice rule of Mattox v.

United States, 146 U.S. 140, 150 (1892), and Remmer v. United States, 347
U.S. 227, 229 (1954), because the Bible-reading is an impermissible external
influence on the jury’s deliberations and verdict.

i

PARTIES AND LIST OF PRIOR PROCEEDINGS
The parties to this proceeding are Petitioner Martin Kipp and

Respondent Ron Broomfield, Acting Warden.1 The California Attorney
General represents Respondent.

On December 15, 1988, Kipp was convicted by jury in Los Angeles
County Superior Court of first degree murder, rape, and robbery in People v.

Kipp, case no. A028286, Judge Michael G. Nott, presiding. Petitioner’s

Appendix filed concurrently herewith (“Pet. App.”) 36; 19 RT 3954-3955.2 On

January 30, 1989, the jury returned a death verdict at Kipp’s penalty trial.
24 RT 5255-5256; 5 CT 1447.3 On February 24, 1989, Judge Nott sentenced

Kipp to death and entered judgment against him. 24 RT 5288-5289; 5 CT

1484-1485.

1 Although Ron Davis is named as Respondent in the Ninth Circuit’s
opinion affirming the judgment and its order denying rehearing, the website
for the California Department of Corrections and Rehabilitation indicates
that Ron Broomfield is currently the Acting Warden of San Quentin State
Prison, where Kipp remains in state custody. See
https://www.cdcr.ca.gov/Facility-Locator/SQ/ (last visited, May 17, 2021).
Accordingly, Kipp names Mr. Broomfield as Respondent in this petition
rather than Mr. Davis. See Supreme Court Rule 35.3.

2 “RT” refers to the reporter’s transcript of trial lodged by Respondent
in district court. See district court docket 13, lodgment 2. Unless otherwise
noted, all references to “docket” are to the district court docket in Kipp’s
habeas corpus case.
3 “CT” refers to the clerk’s transcript of trial lodged by Respondent in
district court. See docket 13, lodgment 1.
ii

The California Supreme Court affirmed the judgment on appeal in a
published opinion written by Justice Joyce L. Kennard and filed on November

2, 2001 in People v. Kipp, 33 P.3d 450, case no. S009169. Pet. App. 177-218.
On November 12, 2003, the California Supreme Court summarily

denied Kipp’s habeas corpus petition in case no. S093369. Pet. App. 176. On

June 28, 2006, the California Supreme Court summarily denied a habeas
petition filed by Kipp in case no. S129115. Pet App. 175.

On December 2, 2015, United States District Judge Philip S. Gutierrez
denied Kipp’s habeas corpus petition and entered judgment against him in

Kipp v. Davis, C.D. Cal. case no. CV 03-8571-PSG. Pet. App. 35-81. The

court granted a certificate of appealability (“COA”) on two claims not raised
here. Pet. App. 16, 81.

On August 19, 2019, the Ninth Circuit Court of Appeals, per the

Honorable Richard A. Paez, Mary H. Murguia, and Jacqueline H. Nguyen
(writing), affirmed the judgment in a published opinion in Kipp v. Davis, 971

F .3d 866, case no. 15-99020. Pet. App. 2-34.4 The court granted a COA on

the juror misconduct issue raised in this petition. Pet. App. 17. On

4 On the same day, the same panel reversed the district court and
granted guilt-phase relief in Kipp’s appeal challenging his separate Orange
County judgment. Kipp v. Davis, 971 F.3d 939, 943, 960 (9th Cir. 2020),
rehearing en banc denied, 986 F.3d 1281 (Mem.) (9th Cir. 2021).
iii

December 21, 2020, the panel denied Kipp’s timely-filed petition for panel
rehearing and rehearing en banc. Pet. App. 1.

iv

TABLE OF CONTENTS

PAGE

QUESTION PRESENTED

i

PARTIES AND LIST OF PRIOR PROCEEDINGS

ii

INTRODUCTION

1

OPINIONS BELOW

2

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

6

I.

II.

III.

KIPP’S ARREST AND PRE-TRIAL PROCEEDINGS

6

7

THE GUILT TRIAL
A.

Prosecution Case

7

B.

Admission of the September 15 Letter

8

C.

Defense Case

9

D.

Prosecution Closing Argument

9

E.

Defense Closing Argument

11

F.

Prosecution’s Rebuttal Argument

12

G.

Deliberations and Verdicts

12
13

PENALTY TRIAL

A.

Opening Statements

13

B.

Prosecution Case in Aggravation

13

C.

Defense Case in Mitigation

14

v

TABLE OF CONTENTS
PAGE
D.

Prosecution Rebuttal............................................................ 17

E.

Closing Arguments ............................................................... 17

F.

Instructions, Jury Deliberations and Verdict..................... 18

IV.

STATE DIRECT APPEAL ............................................................. 19

V.

THE JUROR MISCONDUCT CLAIM PRESENTED
IN STATE HABEAS AND THE COURT'S SUMMARY
DENIAL OF THE CLAIM ............................................................. 19

VI.

FEDERAL HABEAS ACTION ...................................................... 21

REASONS FOR GRANTING THE WRIT ........................................................ 21
I.

AEDPA Standards ......................................................................... 21

II.

The Petition Implicates an Acknowledged Circuit
Split on an Important Issue That Only This Court
Can Resolve .................................................................................... 22

III.

The Reading of Bible Verses in the Jury Room During
Deliberations Is Misconduct Analyzed Under the
Presumed Prejudice Rule of Mattox and Remmer
Because It Involves an Extraneous or External
Influence on the Jurors' Deliberations and Verdict ..................... 24

IV.

The Application of Mattox-Remmer To Kipp's Claim................... 32

CONCLUSION ................................................................................................... 40
INDEX TO APPENDIX (Appendix filed separately)
1.

Order by Ninth Circuit denying petition for
rehearing and rehearing en bane in
case no. 15-99020, entered 12/21/20 ............................. Pet. App. 1

2.

Opinion by Ninth Circuit affirming judgment on
appeal in case no. 15-99020, entered 8/19/20 .............. Pet. App.
Vl

2

TABLE OF CONTENTS
PAGE
3.

Judgment in C.D. Cal. case no.
CV 03-8571 PSG, entered 12/2/15 ............................... Pet. App. 35

4.

Order Denying First Amended Petition
for Writ of Habeas Corpus and Motion To
Amend in C.D. Cal. case no. CV 03-8571 PSG,
entered 12/2/15 ............................................................. Pet. App. 36

5.

Order Denying Petitioner's Motion for
Evidentiary Hearing and Order for Merits
Briefing in C.D. Cal. case no. CV 03-8571 PSG,
entered 4/30/14 ............................................................. Pet. App. 82

6.

Order denying habeas corpus petition in
In re Kipp, California Supreme Court case
no. S129115, filed 6/28/06 ............................................ Pet. App. 175

7.

Order denying habeas corpus petition in
In re Kipp, California Supreme Court
case no. S093369, filed 11/12/03 .................................. Pet. App.176

8.

Opinion in People v. Kipp, California Supreme
Court case no. S009169, affirming judgment on
direct appeal, filed 11/1/01........................................... Pet. App.177

9.

Portions of juror questionnaires from
Kipp's capital trial in Los Angeles County
Superior Court case no. A028286, filed in
C.D. Cal. case no. CV 03-8571 PSG on 8/8/07............ Pet. App. 219

10.

Declaration of Alan Clow filed in C.D. Cal.
case no. CV 03-8571 PSG on 8/8/07
(signed 8/2/07) .............................................................. Pet. App. 233

11.

Declaration of Algertha Rivers filed in
C.D. Cal. case no. CV 03-8571 PSG on
11/8/04 (signed 4/3/00) ................................................. Pet. App. 236

..
vu

TABLE OF CONTENTS
PAGE
12.

13.

14.

Prosecutor’s closing argument at the
penalty-phase of Kipp’s capital
trial in Los Angeles County Superior
Court case no. A028286 trial, 1/24/89

Pet. App. 240

Portion of the jury instructions given at the
penalty-phase of Kipp’s capital trial in
Los Angeles County Superior
Court case no. A no. A028286 trial, 1/24/89

Pet. App. 288

Prosecution Exhibits 43B and 68B admitted at
Kipp’s capital trial in Los Angeles County
Superior Court case no. A028286 on 12/14/88
and 1/23/89, respectively (letters by Kipp dated
9/9/87 and 9/15/87)

Pet. App. 292

vm

TABLE OF AUTHORITIES

PAGE(S)
Federal Cases
Barnes v. Joyner,
751 F.3d 229 (4th Cir. 2014)

37

Brecht v. Abrahamson,
507 U.S. 619 (1993)

24, 33

Brumfield v. Cain,
576 U.S. 305 (2015)

22

Caldwell v. Mississippi,
472 U.S. 320 (1985).

25

Clark v. Chappell,
936 F.3d 944 (9th Cir. 2019)

24, 33

Coe v. Bell,
161 F.3d 320 (6th Cir. 1998)

29

Crittenden v. Ayers,
624 F.3d 943 (9th Cir. 2010)

23, 40

Fields v. Brown,
503 F.3d 755 (9th Cir. 2007) (en banc)

passim

Frantz v. Hazey,
533 F.3d 724 (9th Cir. 2008) (en banc)

21, 22

Godoy v. Spearman,
861 F.3d 956 (9th Cir. 2017) (en banc)

23, 24, 34, 37

Hurst v. Joyner,
757 F.3d 389 (4th Cir. 2014)

25, 37

Jones v. Kemp,
706 F. Supp. 1534 (N.D. Ga. 1989)

31

Kipp v. Davis,
971 F.3d 866 (9th Cir. 2020)

passim

ix

TABLE OF AUTHORITIES
PAGE(S)
Mattox v. United States,
146 U.S. 140 (1892)..

23, 26

Maxwell v. Roe,
628 F.3d 486 (9th Cir. 2010)

22

McNair v. Campbell,
416 F.3d 1291 (11th Cir. 2005)

28, 29, 37

Mickens v. Taylor,
535 U.S. 162 (2002)

38

Oliver v. Quarterman,
541 F.3d 329 (5th Cir. 2008)

passim

Panetti v. Quarterman,
551 U.S. 930 (2007)

22, 28

Parker v. Gladden,
385 U.S. 363 (1966) (per curiam)

26, 36

Porter v. McCollum,
558 U.S. 30 (2009) (per curiam)

39

Remmer v. United States,
347 U.S. 227 (1954)....

23

Remmer v. United States,
350 U.S. 377 (1956)....

23, 26

Robinson v. Polk,
438 F.3d 350 (4th Cir. 2006)

23, 24, 30, 31

Robinson v. Polk,
444 F.3d 225 (4th Cir. 2006)

27, 35

Schriro v. Landrigan,
550 U.S. 465 (2007)

37

Smith v. Phillips,
455 U.S. 209 (1982)

25
x

TABLE OF AUTHORITIES

PAGE(S)
Tanner v. United States,
483 U.S. 107 (1987)...

26, 36

Turner v. Louisiana,
379 U.S. 466 (1965)

26

United States v. Lara-Ramirez,
519 F.3d 76 (1st Cir. 2008) ..

29

United States v. Velarde-Gomez,
269 F.3d 1023 (9th Cir. 2001) (en banc)

36

Warger v. Shauers,
574 U.S. 40 (2014)

23

Wiggins v. Smith,
539 U.S. 510 (2003)

28

Wilson v. Sellers,
138 S. Ct. 1188 (2018)

32

Winzer v. Hall,
494 F.3d 1192 (9th Cir. 2007)

38

Woodford v. Garceau,
538 U.S. 202 (2003)

21

State Cases
People v. Kipp,
33 P.3d 450 (Cal. 2001)

2

People v. Williams,
148 P.3d 47 (Cal. 2006)

34, 35

Federal Constutition, Statutes and Rules
28 U.S.C. § 1254

3

28 U.S.C. § 1291

3

28 U.S.C. § 2241

3

xi

TABLE OF AUTHORITIES
PAGE(S)
28 U.S.C. § 2253

3

28 U.S.C. § 2254

passim

Fed. R. Evid. 606

26, 32

passim

U.S. Const, amend. VI
U.S. Const, amend. VIII

4, 19, 25

U.S. Const, amend. XIV

4, 19, 24, 25

U.S. Supreme Court Rule 10

22

U.S. Supreme Court Rule 13

3

Miscellaneous
Webster’s New World College Dictionary (3d ed. 1996)

xii

31, 36

PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS

FOR THE NINTH CIRCUIT

Martin Kipp petitions for a writ of certiorari to review the judgment of

the Ninth Circuit Court of Appeals affirming the judgment against him in his

habeas corpus action.

INTRODUCTION
Martin Kipp is a Native American on California’s death row. He was

tried in Orange County for one murder and later tried in Los Angeles County
for another murder; the Los Angeles County judgment is the subject of this
petition. Soon after the Orange County jury returned a death verdict,5 Kipp

wrote two frustrated, irrational letters to his wife that jailers intercepted.

The letters made numerous references to Satan, including that Kipp didn’t
believe in God anymore but Satan had helped him. Over defense objection,

the letters were admitted into evidence. The prosecutor emphasized the

letters in his guilt- and penalty-phase closing arguments, where the jury first

5 As noted above, the Ninth Circuit granted guilt-phase relief from the
Orange County judgment in 2020. Kipp, 971 F.3d at 943, 960. The State has
not appealed that decision or initiated a retrial.
1

heard the contents of the letters. He argued that Kipp had Satan in his soul.

During penalty deliberations, a juror brought a Bible into the jury room and

read aloud from it to help the panel decide whether Kipp should live or die.
The passage “an eye for an eye” was discussed by the majority-Christian jury.

Despite receiving the Satan statements and learning that Kipp had been
sentenced to death in Orange County -- a judgment since vacated in federal
habeas -- the jury deliberated for over three days before returning a death

verdict, showing the prejudice from the misconduct in consulting the Bible.

OPINIONS BELOW
The Ninth Circuit’s order denying Kipp’s petition for panel rehearing
and rehearing en banc is unreported. Pet. App. 1. The Ninth Circuit’s

opinion affirming the judgment of the district court against Kipp is reported
in Kipp v. Davis, 971 F.3d 866 (9th Cir. 2020). Pet. App. 2-34. The district

court’s final judgment dismissing Kipp’s habeas corpus petition with
prejudice is unreported. Pet. App. 35.

The orders by the California Supreme Court summarily denying Kipp’s
two habeas corpus petitions are unreported. Pet. App. 175-176. The opinion
by the California Supreme Court affirming the judgment against Kipp on

direct appeal is reported at People v. Kipp, 33 P.3d 450 (Cal. 2001). Pet. App.

177-218.

2

JURISDICTION
The Ninth Circuit’s order denying Kipp’s timely-filed petition for panel
rehearing and rehearing en banc was filed and entered on December 21,
2020. Pet. App. 1; Ninth Circuit docket 81. The Ninth Circuit’s opinion

affirming the judgment against Kipp was filed and entered on August 19,
2020. Pet. App. 2, 5; Ninth Circuit docket 71. The district court had

jurisdiction under 28 U.S.C. §§ 2241 and 2254. The Ninth Circuit had
jurisdiction pursuant to 28 U.S.C. §§ 1291 and 2253. This Court has

jurisdiction under 28 U.S.C. § 1254(1). This petition is timely under Supreme

Court Rules 13.1 and 13.3 and the Court’s order of March 19, 2020 extending
the filing deadline for certiorari petitions by another 60 days (here, to May
20, 2021) because of Covid-19.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment to the U.S. Constitution
“In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district wherein

the crime shall have been committed, which district shall have been

previously ascertained by law, and to be informed of the nature and cause of
the accusation; to be confronted with the witnesses against him; to have

compulsory process for obtaining witnesses in his favor, and to have the

Assistance of Counsel for his defense.”

3

Eighth Amendment to the U.S. Constitution
“Excessive bail shall not be required, nor excessive fines imposed, nor

cruel and unusual punishments inflicted.”

Section 1 of the Fourteenth Amendment to the U.S. Constitution
“ . . . nor shall any State deprive any person of life, liberty, or property,

without due process of law . . .

28 U.S.C. § 2254(a)
“The Supreme Court, a Justice thereof, a circuit judge, or a district

court shall entertain an application for a writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a State court only on the
ground that he is in custody in violation of the Constitution or laws or
treaties of the United States.”

28 U.S.C. § 2254(d)
“An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with

respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim -

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined

by the Supreme Court of the United States; or

4

(2) resulted in a decision that was based on an unreasonable

determination of the facts in light of the evidence presented in the State court
proceeding.”

28 U.S.C. § 2254(e)
“(1 ) In a proceeding instituted by an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court, a

determination of a factual issue made by a State court shall be presumed to
be correct. The applicant shall have the burden of rebutting the presumption

of correctness by clear and convincing evidence.
(4) If the applicant has failed to develop the factual basis of a claim in
State court proceedings, the court shall not hold an evidentiary hearing on
the claim unless the applicant shows that-

(A) the claim relies on(i) a new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court, that was

previously unavailable; or
(ii) a factual predicate that could not have been previously
discovered through the exercise of due diligence; and

(B) the facts underlying the claim would be sufficient to establish

by clear and convincing evidence that but for constitutional error, no

5

reasonable factfinder would have found the applicant guilty of the
underlying offense.”

STATEMENT OF THE CASE

I.

Kipp’s Arrest and Pre-Trial Proceedings
Tiffany Frizzell was found dead in a Long Beach hotel on September

17, 1983. Pet. App. 187. Antaya Howard was found dead in a car in

Huntington Beach on January 4, 1984. Pet. App. 191. Kipp was charged
with murdering Frizzell and Howard in separate actions in Los Angeles and

Orange Counties, respectively. Pet. App. 187; 20 RT 4191. The Orange
County case was tried first. Pet. App. 187. The prosecution presented
evidence of the Frizzell homicide at the guilt-phase of the Orange County

trial. Id.', Kipp, 971 F.3d at 943-946. The prosecution presented evidence of
the Howard homicide at the penalty-phase of the Los Angeles County trial.

Pet. App. 9. The Orange County jury returned a death verdict on August 24,

1987, and Kipp was sentenced to death on September 18, 1987. Kipp, 971
F.3d at 947.
In the Los Angeles County case, on September 22, 1988 the prosecutor

announced that he had given defense counsel a letter by Kipp that “has some

apparent incriminatory significance.” 2 RT 5. The letter was postmarked
September 15, 1987, several weeks after the Orange County jury returned a

death verdict and several days before the Orange County judge sentenced
6

Kipp to death. It was addressed to Kipp’s wife, also incarcerated in county

jail. Pet. App. 188. It states: “I killed, raped, sodomized, beat, swore and
laughed at those fucking no good bitches! .... ‘Satan’s’ licking both those
bitches up now and laughing. Just like I laughed at my trial the whole time.”
It continues: “[D]oes it at all sound like I’m in anyway SORRY! FUCK NO!”

Pet. App. 298 (emphasis in original); see also Pet. App. 20. Kipp told his wife,
“[i]n our next world we will celebrate and be on top .... (We are coming
Home Satan!).” Pet. App. 298-299 (original emphasis). The judge denied the

defense motion to suppress the letter. 12 RT 2452.

II.

The Guilt Trial

A.

Prosecution Case

As described by the California Supreme Court, the prosecution
presented evidence that Frizzell was found dead in her hotel room naked

from the waist down with a cloth belt pulled round her neck. The cause of
death was asphyxiation due to ligature strangulation. “There were no signs

of forced entry into the room, and no indication that a struggle had taken
place there. Frizzell’s purse, driver’s license, and some $130 in cash were
found in a dresser in the room.” Pet. App. 187. The trial record shows that

earrings, a necklace and a Bulova watch were also found in the room, and
that Frizzell “was wearing jewelry and had cash in her purse.” 17 RT 3420,

7

3440-3441. Kipp’s fingerprints were found on a telephone in the room and on
a book Frizzell owned. Pet. App. 187-188.
A criminalist testified that semen and sperm were present “in Frizzell’s

vagina and on her external genital area, but not in her mouth or rectal area.”

Pet. App. 187. “There was no trauma to the external vaginal or anal areas,
but there was redness and erosion of the cervix consistent with sexual

intercourse.” Pet. App. 188. A criminalist further testified that the redness

and erosion were consistent with normal, unforced sexual intercourse; that he

could not definitively say the wounds were connected with death; that the
wounds could have occurred within forty-eight hours of the victim’s death;
that he did not find any evidence of anal intercourse; and that bruises on the

stomach and thigh could have occurred through normal, everyday activity.

17 RT 3631-3636. The prosecution presented evidence that while in custody

on the charges, Kipp twice tried to escape from county jail. Pet. App. 188.

B.

Admission of the September 15 Letter

The defense objected to the admission of Kipp’s September 15 letter on
the grounds that it was (1) “so shatteringly prejudicial that it’s [sic] probative

value is far, far outweighed by it’s [sic] prejudicial value” and (2) protected by
the spousal privilege. 18 RT 3710. The court rejected Kipp’s arguments,

ruling that the letter was an admission and more probative than prejudicial.
18 RT 3711, 3714. The prosecutor said he intended to introduce the entire

8

letter at penalty and asked to admit the references to Satan at guilt. 18 RT

3715, 3723-3726. Defense counsel asked if those references would be
admissible at penalty and indicated that, if so, the defense wanted the jury to

hear them first at guilt. 18 RT 3724-3726. The court ruled that:
The reference to Satan, I am willing to take out at
the trial phase, but allow at the penalty phase under

factor k. [^] However, if you want them in and know
they’re going to come in during penalty and you want

them in now, then I’ll allow them in during the trial
phase.

Mr. Brodey [defense counsel]: We want them in now.
18 RT 3726. The court suggested to the prosecutor, “once it’s in evidence,

during your final argument you can hold it up and show them the portion to

read during the deliberations.” 18 RT 3729. The prosecutor agreed. Id. The

court admitted the letter as Exhibit 43. 18 RT 3754.

C.

Defense Case

The defense presented no evidence. Pet. App. 189.

D.

Prosecution Closing Argument

The prosecutor acknowledged it was a circumstantial case with no
eyewitnesses. 18 RT 3843. He argued, “[n]ow, there is one last significant

9

piece of circumstantial evidence that I would like to relate to you this

afternoon”: Kipp’s September 15 letter. 18 RT 3851. He explained:
Thus far in the trial, other than an[] allusion by

myself in my opening statement as to the contents of
the letter, you have not been privy to the contents of
the letter. [Tf] The letter has now been received in

evidence. It has been stipulated that the defendant
Martin James Kipp wrote that letter.
And to conclude this afternoon ... I would like

to leave you with the content of a portion of page 7 of
that particular letter.

Page 7 reads in part: “I killed, raped,

sodomized, beat, swore, and laughed at those fucking

no-good bitches. Yeah, it felt great, because neither
deserved to live anymore. . . . Well, Satan’s licking

both those bitches up and laughing.”
Ladies and gentleman, that constitutes an

admission, a rather chilling admission.
18 RT 3851-3853; see also Pet. App. 18.

The next morning, the prosecutor began the second half of his closing
by noting: “As I drove home last night I carried with me the rather indelible
10

impression of the looks in your eyes as I read that letter yesterday

afternoon. ... I realized as I watched your reaction yesterday, that the

language that I read was indeed distressing.” 19 RT 3855-3856. He argued
that “it is very difficult for all of us to acknowledge that there is evil in this

world, that there is evil in this very community. But as you know now from
the evidence, and as you know now from having heard part of the content of

the letter that the defendant wrote, there is. And there’s no turning away

from it.” 19 RT 3857.

E.

Defense Closing Argument

Defense counsel began by noting the “moment of drama” when the

prosecutor read Kipp’s letter in his closing argument, and added that “the
moment of drama is the most difficult part to deal with.” 19 RT 3892. He

asked the jury to evaluate the letter in context. 19 RT 3895. When Kipp
wrote the letter, he was awaiting sentencing in the Orange County case. The

letter reflects the rantings and frustrations “of a very frightened guy, and a
very sick man who’s isolated.” 19 RT 3894. Some of the statements in the

letter “are just out and out untruths”; others are “half truths”; and others are

“fantasies” -- for example, there was no sodomy or beating, “[t]he evidence on
that is blatantly clear.” 19 RT 3894-3895. Kipp was writing to his wife,

professing his love to her and also trying “to make himself [look] like a big,
tough guy” who “can handle anything.” 19 RT 3895. He argued that neither

11

special circumstance allegation was true. There was no robbery because the

property was taken as an afterthought. There was no rape because Kipp
entered the room consensually and there was no evidence of force or restraint
used on the victim. 19 RT 3897-3899.

F.

Prosecution’s Rebuttal Argument

The prosecutor emphasized the letter in rebuttal, calling it “a very
devastating piece of evidence.” 19 RT 3903. He argued that the letter’s
reference “to a second victim is very, very important” and shows “it was the
other poor victim that was sodomized.” 19 RT 3904. The defense objected
but the court ruled it was acceptable argument. Id. The prosecutor urged

the jury “to read the letter for yourself.” 19 RT 3911.

G.

Deliberations and Verdicts

The jury began deliberations at 12:05 p.m. on December 14, 1988. 19
RT 3920. The defense moved for a mistrial based on the prosecutor’s
argument that Kipp sodomized Howard. 19 RT 3921-3923. The judge denied

the motion, 19 RT 3923, but the California Supreme Court later noted that

“the prosecution’s evidence did not establish that either victim had been
sodomized.” Pet. App. 199. At around 3:40 p.m., the court sent the redacted
letter, Exhibit 43A, to the jury, which had already requested it. 19 RT 3941.

The jury reached a verdict the next day at 3:20 p.m. 19 RT 3951. The
jury found Kipp guilty of first degree murder, rape, and robbery, and that the
12

h

rape special circumstance was true. Pet. App. 186. The jury deadlocked on

the robbery special circumstance allegation. 19 RT 3952, 3966.

111.

Penalty Trial
A.

Opening Statements

In his opening statement, the prosecutor summarized the case in

aggravation. 19 RT 3971-3978. Defense counsel tried to put the September
15 letter in context, explaining that the “letter was written after [Kipp] had

been convicted in Orange County, and after he had been given the death
sentence there.” 19 RT 3994. When he wrote the letter, Kipp was lonely,

distraught, and missed his wife. 19 RT 3993-3994. The letter is full of lies,
hyperbole, exaggerations, “calls to Satan” —“the rantings and ravings of a
disturbed mind,” 19 RT 3995. “[T]he point is that this letter the prosecution

is using is the single most damaging part of the case. And we don’t think it’s

fair to condemn a man to death based upon a rash, emotional outburst, no

matter how ugly and unrepenting that letter is at the time.” 19 RT 3996.

B.

Prosecution Case in Aggravation

The prosecutor presented evidence that Kipp raped June Martinez in

June 1981 and pleaded guilty to that charge in December 1981; assaulted his

girlfriend Loveda Newman in November 1983; sexually assaulted and killed
Howard in December 1983; and threatened to kill a sheriffs deputy when he

13

was caught trying to escape from the Los Angeles County Jail in January
1988. Pet. App. 189-191.

C.

Defense Case in Mitigation

The defense presented evidence that Kipp was born on the Blackfeet
Reservation in Montana to Mary Still Smoking, an alcoholic. Kipp lived in

his grandmother’s two-room house with twelve to fourteen children. The
adults were frequently inebriated, fighting was common, and the children

were neglected. At the age of twenty-three months, Kipp was removed from
the Still Smoking home by child welfare workers and was placed with John

and Mildred “Bobbie” Kipp. John’s alcohol abuse and addiction escalated and
he physically abused Martin and Bobbie. Pet. App. 193-195.

Kipp enlisted in the Marines and initially performed well, but began
abusing alcohol, cocaine, and methamphetamine. After his release from

prison in 1983 for raping Martinez, he continued abusing substances. An

expert testified on the harmful effects of chronic use of cocaine and
methamphetamine. Pet. App. 196.

The main witness on Kipp’s life history was psychologist Craig Haney,
who testified that Kipp was sorry for his crimes and was upset, angry, and

ashamed when he wrote the September 15 letter. 23 RT 4870-4873, 4978-

4980.

14

The prosecutor said he wanted to cross-examine Haney about a letter
Kipp wrote on September 7, 1987. 23 RT 4928.6 The letter said that Kipp
would kill prosecutors and prison guards; that “‘Satan will lick them all up in

a tredge [sic] of horror’”; and that ‘“Satan has helped me rejuvenate my
energy . . . .” Pet. App. 19; see also Pet. App. 313.
Defense counsel objected for lack of notice and on the ground that the

prosecutor was just “seeking to get in some enormous prejudicial evidence

about Satan which [has] virtually no probative value.” 23 RT 4929, 4949.
The prosecutor argued that the letter was relevant rebuttal evidence to “any
sort of inference of remorse indicated by Doctor Haney’s testimony” and to
Kipp’s state of mind at the times the letters were written. 23 RT 4946. The

court admitted the letter. 23 RT 4951-4952.

On cross, the prosecutor read three statements from the September 15
letter and asked if Haney recalled reading them. 23 RT 4981. He said he

did. Id. Asked on re-direct if he had an opinion on Kipp’s state of mind when
he wrote the September 15 letter, Haney said his opinion was very consistent

with what Kipp told him: he was confused, despondent, and angry, and
fluctuating among emotions. 23 RT 4999. Asked whether some statements

6 The court and parties later referred to this as the “September 9
letter.” This petition uses the term “September 9 letter” unless referring to
places in the record that use the September 7 date. See Pet. App. 15.

15

in the letter were consistent with what Kipp told him, Haney replied, “on the

surface, no, it’s quite inconsistent.” However, “[t]his is a man who is in jail
just been sentencefd] to death. He is at the very bottom of his life,” trying not
to show vulnerability to his wife, and angry and upset at the way his trial
was conducted. 23 RT 5000-5001.

The court asked counsel at the bench: “Are you aware of what just
happened? Two things. Number one, he expressed an opinion. And number

two, he just told the jury that he’s under sentence of death in Orange
County.” 23 RT 5002. Defense counsel replied that once the court ruled that

the letter was admissible in rebuttal, Haney was “going to have to talk about
this letter and explain what this letter is about. ffl] I didn’t want him to

express the opinion, but I felt we had no choice.” 23 RT 5003. As at the guilt­
phase, the court suggested that the prosecutor read from the letter in his
closing and the prosecutor said he would. 23 RT 5004.

The defense asked the court to reconsider its ruling on the admissibility

of the September 9 letter, arguing that the prosecutor “wants to get more of
the language about Satan” into evidence and that would just “inflame the
jury’s passions.” 24 RT 5018. Although acknowledging that it could be

“reversible error,” the court stood by its prior ruling. 24 RT 5017.

16

D.

Prosecution Rebuttal

Over another defense objection, the court admitted the September 9

letter as Exhibit 68 and identified the parts it would redact from the version
given to the jury. 24 RT 5089-5090; Pet. App. 308-317.

E.

Closing Arguments

In his closing, the prosecutor emphasized that Kipp was not remorseful

and that the September 15 letter proved it. Pet. App. 280. Replaying the

drama from his guilt closing, he said, “through developments
yesterday ... we have before you a second letter now.” Pet. App. 281. He

quoted the letter:
I’d rape and sodomize every woman bitch deputy and

gouge their eyes out. But I would let them live as

invalids. Yeah, Satan will lick them all up in a
tredge [sic] of horror. . . . Yeah, I don’t believe in God

anymore, because their [sic] isn’t one who has ever
helped me. But Satan has helped me rejuvenate my
energy in a working manner. Don’t ever

underestimate my intentions, babe, that’s all I can

say.

Pet. App. 19. He argued: “‘When you consider these two letters with the
language the defendant used in conjunction with that one 1988 escape

17

'I

attempt, you have a pretty consistent notion of what is going on in the

defendant’s mind with regard to remorse.”’ Pet. App. 19-20. He concluded by

saying, ‘“[t]his defendant, this real Martin Kipp, has murder in his heart, has
Satan [in] his soul.’” Pet. App. 20.

Defense counsel argued that “the letter that Mr. Hodgman is going to
introduce at the last of the case, which was unusual, says here, ‘Yeah, I don’t
believe in God anymore because there isn’t one who has ever helped me.’
This is a man who is down as low as you can go.” 24 RT 5221-5222.

F.

Instructions, Jury Deliberations and Verdict

The jurors were instructed that “[y]ou must decide all questions of fact
in this case from the evidence received in this trial and not from any other

source.” Pet. App. 290. They were instructed, “[y]ou must not make any
independent investigation of the facts or the law, or consider or discuss facts

to which there is no evidence. This means, for example, you must not on your
own visit the scene, conduct experiments or consult reference works or other
persons for additional information.” Pet. App. 290-291.

The jury began deliberations at about 2:30 p.m. on Tuesday, January
24, 1989. 5 CT 1388; 24 RT 5247. The jury deliberated the next two days

and was off on Friday the 27th. 5 CT 1389-1390; 24 RT 5247, 5252-5253.

The jury returned a death verdict on Monday, January 30 at about 2:50 p.m.

18

24 RT 5255-5256; 5 CT 1447. On February 24, 1989, the judge denied the
motion and sentenced Kipp to death. 5 CT 1484-1485; 24 RT 5288-5289.

IV.

State Direct Appeal
The California Supreme Court affirmed the judgment on appeal,

rejecting claims not at issue here. Pet. App. 177-218.

V.

The Juror Misconduct Claim Presented in State Habeas and
the Court’s Summary Denial of the Claim
In Claim X of his first state habeas corpus petition, Kipp alleged that

he was denied his rights under the Sixth, Eighth and Fourteenth

Amendments to a fair trial by an unbiased jury, to counsel, to confront
witnesses against him, to a reliable capital sentencing determination, and to

due process because of juror misconduct during the penalty-phase

deliberations. Docket 13, lodgment 8 at 150-154. He based his claim

primarily on the declaration of juror Algertha Rivers, which, he argued,
showed that “during the penalty phase of trial. . . extraneous information

was brought in by one of the jurors and considered by the other jurors when
deciding the appropriate punishment to be suffered by petitioner. Since the

error biased one or more jurors against petitioner, the court must reverse the
death sentence.” Id. at 150; see also id. at 151. Rivers declared:
I recall that during penalty phase deliberations a
female juror with dark, shoulder-length hair brought
in a Bible and read it to us. She talked about several
verses in the Bible, which she told us would help us
19

in making a decision. The jurors talked about
standing in judgment of another human being. There
was also discussion of the verses which state, “an eye
for an eye” and “judge not lest ye be judged.” A little
over half of the jurors had a religious background and
strong religious beliefs.
Pet. App. 236.
Kipp also based his claim on questionnaires completed by prospective

jurors, which showed that seven seated jurors self-identified as Christian.
Pet. App. 219-232. He also submitted a declaration by the defense trial
investigator, who reported that Rivers told him that the jury voted five to six

times before reaching a death verdict. Pet. App. 233. The investigator said
that another juror, Sharon Heffner, told him that she was Christian (the
eighth self-described Christian on Kipp’s jury), was one of the final jurors to

change her vote to death, and changed her vote after “researchfing] the Bible
for the types of crimes that the defendant committed” and concluding that,
“according to the Bible the crimes of rape and murder deserve the death

penalty.” Pet. App. 233-234.
Kipp argued that the jury’s consideration of extraneous evidence was
misconduct that led to a presumption of prejudice and required relief. Docket

13, lodgment 8 at 152-153. He also requested an evidentiary hearing to be

able to further prove his claim. Id. at 150. The State did not rebut Kipp’s
evidence with any other evidence but instead argued that Rivers’ declaration

20

was not credible based on the declaration itself. Docket 13, lodgment 11 at
75-77. The California Supreme Court summarily denied the claim “on the

merits for failure to state a prima facie case for relief.” Pet. App. 176.

VI.

Federal Habeas Action
The district court denied the claim in its order denying Kipp’s motion

for an evidentiary hearing. Pet. App. 155-158. The Ninth Circuit granted a

COA on the claim but denied relief in its published opinion filed on August
19, 2020 and then denied Kipp’s petition for rehearing. Pet. App. 1, 17, 30-

34. The Ninth Circuit and district court rulings are discussed below.

REASONS FOR GRANTING THE WRIT

I.

AEDPA Standards
Kipp filed his federal habeas petition after AEDPA’s effective date;

therefore, his petition is governed by AEDPA. Woodford v. Garceau, 538 U.S.
202, 205, 210 (2003). To obtain relief under AEDPA, a petitioner must show
that his constitutional rights were violated under 28 U.S.C. § 2254(a) and
that § 2254(d) does not bar relief on any claim adjudicated on the merits in

state court. Frantz v. Hazey, 533 F.3d 724, 735-737 (9th Cir. 2008) (en banc).

Under § 2254(d), a habeas petition challenging a state court judgment:
shall not be granted with respect to any claim that
was adjudicated on the merits in State court
proceedings unless the adjudication of the claim-(l)
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the

21

Supreme Court of the United States; or (2) resulted
in a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.
When a federal court concludes that the state court decision is contrary

to or an unreasonable application of federal law, or is based on an
unreasonable factual determination, it reviews the claim de novo in assessing

whether the petitioner’s constitutional rights were violated, Panetti v.
Quarterman, 551 U.S. 930, 953-954 (2007), Frantz, 533 F.3d at 735, Maxwell

v. Roe, 628 F.3d 486, 506 (9th Cir. 2010), and can grant an evidentiary
hearing to allow the petitioner to present further evidence to support his
claim. Brumfield v. Cain, 576 U.S. 305, 311, 324 (2015).

II.

The Petition Implicates an Acknowledged Circuit Split on
an Important Issue That Only This Court Can Resolve
The Court should grant certiorari to resolve the conflict in the circuits

whether under clearly established federal law, 28 U.S.C. § 2254(d)(1), the
reading of Bible verses in the jury room during capital-sentencing
deliberations is juror misconduct subject to the presumed prejudice rule of

Mattox and Remmer because it involves an impermissible extraneous or
external influence on the jury’s deliberations and verdict. Supreme Court
Rule 10. The Ninth Circuit acknowledged this conflict in denying Kipp’s

22

claim. It held that because, as in prior cases,7 it could resolve Kipp’s claim

for lack of prejudice under Brecht, it need not decide the “open question” in
the Circuit whether “injecting Bible verses into the jury room constitutes
juror misconduct because the jury improperly considered ‘extraneous

evidence’” and therefore is analyzed under the “Mattox-Remmer framework
set forth by the Supreme Court.”8 Pet. App. 31-32. The Ninth Circuit
explained that “circuits that have addressed the question are split. {Compare

Oliver v. Quarterman, 541 F.3d 329, 339-40 (5th Cir. 2008) (citing the

Eleventh, First, and Sixth Circuits as support that ‘most circuits have ruled
that when a Bible itself enters the jury room, the jury has been exposed to an

external influence’) with Robinson v. Polk, 438 F.3d 350, 363-64 (4th Cir.

2006) (holding that the Bible is distinguishable from other types of external
influences because ‘reading the Bible is analogous to the situation where a

juror quotes the Bible from memory, which assuredly would not be considered
an improper influence’).” Pet. App. 32-33.

7 Fields v. Brown, 503 F.3d 755, 781 (9th Cir. 2007) (en banc);
Crittenden v. Ayers, 624 F.3d 943, 973 (9th Cir. 2010).
8 Mattox v. United States, 146 U.S. 140, 149-150 (1892), called into
doubt on other grounds by Warger v. Shauers, 574 U.S. 40, 46-47 (2014);
Remmer v. United States, 347 U.S. 227, 229 (1954); Remmer v. United States,
350 U.S. 377, 382 (1956). See also Godoy v. Spearman, 861 F.3d 956 (9th Cir.
2017) (en banc).

23

Under the Mattox-Remmer rule, prejudice is presumed once a
petitioner shows that extraneous evidence was “‘possibly prejudicial,’
meaning it had a ‘tendency’ to be ‘injurious to the defendant.”’ The “‘burden

[then shifts to and] rests heavily upon the state to establish’ the contact was,
in fact, ‘harmless.’” Pet. App. 31-32 (quoting Godoy, 861 F.3d at 959, in turn
quoting Mattox, 146 U.S. at 149-150, and Remmer, 347 U.S. at 229). Mattox-

Remmer's presumption of prejudice and burden-shifting rules reflect the

danger posed by the constitutional errors to which it applies, and is less
onerous than the standard of Brecht v. Abrahamson, 507 U.S. 619 (1993),
that typically applies to constitutional claims in federal habeas. Robinson,
438 F.3d at 375 (King, J., dissenting in part). If Mattox-Remmer applies to

Bible-reading misconduct claims, Kipp is entitled to that prejudice standard

and need not meet Brecht. Clark v. Chappell, 936 F.3d 944, 969-972 (9th Cir.

2019), amended on denial of rehearing, 948 F.3d 1172 (9th Cir. 2020); Godoy,
861 F.3d at 970; infra at 36-37.

III,

The Reading of Bible Verses in the Jury Room During
Deliberations Is Misconduct Analyzed Under the Presumed
Prejudice Rule of Mattox and Remmer Because It Involves
an Extraneous or External Influence on the Jurors’
Deliberations and Verdict
Kipp’s claim is based on clearly established, principles of federal

constitutional law. “The Sixth and Fourteenth Amendments to the United

States Constitution ‘guarantee to the criminally accused a fair trial by a
24

panel of impartial, “indifferent” jurors.’” Hurst v. Joyner, 757 F.3d 389, 394
(4th Cir. 2014) (quoting Irvin v. Dowd, 366 U.S. 717, 722 (1961)); id. at 394,

398 (holding in AEDPA case that state court’s failure to apply Remmer’s
presumption of prejudice to, and hold an evidentiary hearing on capital

petitioner’s claim that juror read Bible at her father’s suggestion before
voting for death “was contrary to or an unreasonable application of the

Supreme Court precedents applicable to juror-influence claims”) (footnote
omitted). “They also protect ‘the right of confrontation,’ which ‘requires that

the “jury’s verdict must be based upon the evidence developed at the trial.’””

Id. (quoting Robinson, 438 F.3d at 359, in turn quoting Turner v. Louisiana,

379 U.S. 466, 472 (1965)). “At its core, these Sixth Amendment rights are
designed to ensure “‘that the evidence developed against a defendant shall

come from the witness stand in a public courtroom where there is full judicial
protection of the defendant’s rights.’”” Id. (quoting Robinson, 438 F.3d at
359, in turn quoting Turner, 379 U.S. at 472).

The Eighth Amendment guarantees reliable, nonarbitrary,
individualized capital sentencing. Caldwell v. Mississippi, 472 U.S. 320, 323,

329-330 (1985). And the Fourteenth Amendment guarantee of “due process
means a jury capable and willing to decide the case solely on the evidence

before it.” Smith v. Phillips, 455 U.S. 209, 217 (1982) (habeas case).

25

Kipp’s claim is also based on this Court’s “clearly established . . .
constitutional rule forbidding a jury from being exposed to an external

influence” before rendering a verdict. Oliver, 541 F.3d at 336 (AEDPA case).
Tanner v. United States, 483 U.S. 107, 117-118 (1987), distinguished internal

influences on a juror’s deliberations, such as a juror’s alleged mental

incompetence, which are protected from challenge by the “no impeachment”
rule of common law and Fed. R. Evid. 606, and external influences, “in which
juror testimony impeaching a verdict would be admissible.”

This Court has recognized as improper external influences on jurors
statements by a bailiff to jurors (Parker v. Gladden, 385 U.S. 363, 364 (1966)
(per curiam)); a relationship between jurors and government witnesses

(Turner, 379 U.S. at 466, 467-470); exposure by jurors to a newspaper article

(Mattox, 146 U.S. at 150-153); and efforts to bribe a juror. Remmer, 350 U.S.
at 377-378, 382. In those cases, the Court applied a presumption of prejudice

to the constitutional claims and granted relief on them. Id.
The question here is whether the reading of Bible verses in the jury
room during capital-sentencing deliberations is juror misconduct subject to

the presumed prejudice rule of Mattox and Remmer because it involves an

impermissible extraneous or external influence on the deliberations and
verdict. The answer is “yes,” as concluded by the majority of Courts of
Appeals to have considered the issue.

26

In Oliver, several jurors testified at a hearing on a new trial motion
that during capital-sentencing deliberations a juror read from the Bible aloud

to other jurors in the jury room. 541 F.3d at 331-332. The Fifth Circuit
concluded, in a case governed by AEDPA, that “it is clear that the prohibition

of external influences from Remmer, Turner, and Parker applies to this
factual scenario” and “that the jury’s consultation of the Bible passages in

question during the sentencing phase of trial amounts to an external
influence on the jury’s deliberations.” Id. at 336, 340; id. at 336 (describing

Remmer, Turner, and Parker as “clearly established Supreme Court
precedents”). The court explained that “the jury’s use of the Bible here” --

“while they were in the jury room debating Oliver’s fate” -- “amounts to a type

of ‘private communication, contact, or tampering’ that is outside the evidence
and law, which is exactly what Remmer sought to circumscribe.” Id. at 340.

Oliver quoted Judge King’s dissent from the denial of rehearing in
Robinson v. Polk, 444 F.3d 225, 231 (4th Cir. 2006), which it aptly described

as “cogently synthesizing] these Supreme Court cases”:

The external influences recognized by the Court in those decisions are
factually diverse, but they share a single, constitutionally significant

characteristic: they are external to the evidence and law in the case,
and carry the potential to bias the jury against the defendant. This
legal principle unifies the bailiffs remarks disparaging the defendant

27

in Parker, the relationship of confidence between the jury and key
prosecution witnesses in Turner, and the effort to bribe a juror in

Remmer.
Oliver, 541 F.3d at 336; see also Panetti, 551 U.S. at 953 (“AEDPA does not

‘require state and federal courts to wait for some nearly identical factual

pattern before a legal rule must be applied.’”); Wiggins v. Smith, 539 U.S.
510, 520 (2003) (“[A] federal court may grant relief when a state court has

misapplied a ‘governing legal principle’ to ‘a set of facts different from those
of the case in which the principle was announced.’”).

Oliver also correctly held that since the jury’s consultation of the Bible
was an external influence under Remmer, Turner, and Parker, those cases

also clearly establish that a presumption of prejudice applies in considering a

habeas petitioner’s challenge to the misconduct. 541 F.3d at 338-339 n.12.9
Oliver noted that “[m]ost circuits have ruled that when a Bible itself

enters the jury room, the jury has been exposed to an external influence.” Id.
at 339. The Eleventh Circuit so ruled in McNair v. Campbell, 416 F.3d 1291,

9 Oliver denied relief because the petitioner did not rebut by clear and
convincing evidence the presumption of correctness that applied to the state
court’s finding, after an evidentiary hearing where four jurors testified, that
the Bible did not prejudice the jury’s verdict. 541 F.3d at 342-343. By
contrast, despite diligently presenting the factual basis of his claim in state
court, and requesting evidentiary hearings in state and federal court, Kipp
has never received a hearing on his claim.

28

1297, 1301, 1307 (11th Cir. 2005) (cited in Oliver), a capital habeas case
governed by AEDPA where the jury foreman “brought a Bible into the jury

room during deliberations, read aloud from it, and led the other jurors in
prayer.” The court applied the Mattox-Remmer presumption of prejudice to

the claim but ruled that the State successfully rebutted it at a state hearing

that included juror testimony, and that the petitioner did not rebut the
presumption of correctness to the state court’s factual findings by clear and

convincing evidence. Id. at 1307-1309.
In Coe v. Bell, 161 F.3d 320, 351 (6th Cir. 1998) (cited in Oliver), in the

course of denying a habeas claim of prosecutorial misconduct for quoting the
Bible in closing argument, the Sixth Circuit explained that “there is error in”

“cases in which a Bible was brought in the jury room” “not because the book
was the Bible, but because the book was not properly admitted evidence.”

In United States v. Lara-Ramirez, 519 F.3d 76, 89 (1st Cir. 2008) (cited

in Oliver), the First Circuit suggested that the presence of a Bible in the jury
room is an external influence on deliberations. The court said that “[b]ecause

no special rule exists when the Bible is involved, the district court had a duty
to investigate ‘the colorable claim of juror taint’ in this case and explore and
exhaust the alternatives to mistrial, just as it would in other situations

where extraneous materials have been brought into the jury’s deliberations.”
Id.; see also McNair, 416 F.3d at 1307 (“Under federal law, any evidence that

29

does not ‘come from the witness stand in a public courtroom where there is

full judicial protection of the defendant’s right of confrontation, of cross­
examination, and of counsel’ is presumptively prejudicial.”) (Quoting Turner,

379 U.S. at 473.)
In contrast to the foregoing cases, in Robinson, the Fourth Circuit held
that the state court did not unreasonably apply federal law in denying a

claim of Bible-reading during capital-sentencing deliberations because “it
would have been reasonable ... to conclude that the Bible is not analogous to

a private communication, contact or tampering with a juror, and that the
common-law rule against allowing juror testimony applied.” 438 F.3d at 363.

The court said that “[u]nlike these occurrences, which impose pressure upon
a juror apart from the juror himself, the reading of Bible passages invites the

listener to examine his or her own conscience from within. In this way, the
Bible is not an ‘external’ influence.” Id. at 363-364. In Robinson, the

petitioner presented affidavits by two law students summarizing their
interviews of jurors and alleging that “(1) a juror asked for, and the bailiff

provided, a Bible during sentencing deliberations; (2) the juror read an ‘eye

for an eye’ passage; (3) the passage was read to the other jurors before a final

vote on a death sentence; and (4) the juror read the passage in an attempt to

convince his fellow jurors to vote for a death sentence.” Id. at 358-359. Judge
King wrote a persuasive dissent arguing that the Bible-reading was “an

30

external influence that has the potential to sway a juror against the
defendant [and] must be deemed presumptively prejudicial.” Id. at 369
(emphasis in original).

Oliver and the cases it relies on has the much stronger argument. Like
the newspaper in Mattox and the bailiff s remarks in Parker, the Bible, like
any book, is external to the evidence and the law the jury can properly
consider. But the Bible is not just any book. To Christians, it is the word of

God and a means of ordering one’s life and decision-making. Jones v. Kemp,

706 F. Supp. 1534, 1559 (N.D. Ga. 1989) (“To the average juror, Webster’s
Dictionary may be no more than a reference book . . . but the Bible is an

authoritative religious document and is different not just in degree, although
this difference is pronounced, but in kind.”); Fields, 503 F.3d at 796 (Berzon,

dissenting) (“tens of millions of Americans . . . view the Bible not as a
collection of ‘notions’ about moral principles, but as a repository of hard-and-

fast imperatives that must direct daily life”). It is no answer to say that
reading from the Bible to other jurors during deliberations is analogous to the

situation where a juror quotes the Bible from memory: Reading directly from
the Bible itself enhances the power of the message by ensuring the message

is accurately conveyed and by dramatically confirming its source. The Bible
is too powerful to be unleashed in capital-sentencing deliberations where it

31

threatens to displace this Court’s law requiring reliable, individualized
sentencing based on facts presented in the courtroom.

IV,

The Application of Mattox-Remmer To Kipp’s Claim
Kipp’s claim is based primarily on a declaration by juror Algertha

Rivers. See supra at 19-20. The California Supreme Court summarily denied

Kipp’s claim “on the merits for failure to state a prima facie case for relief,”

Pet. App. 176, and this is the relevant state court decision for purposes of
federal review. Wilson v. Sellers, 138 S. Ct. 1188, 1191-1192 (2018). The

district court assumed arguendo that the Bible reading was misconduct, but,
relying on Fields and Crittenden, concluded that “the California Supreme
Court was not objectively unreasonable in holding that Petitioner failed to
show a substantial and injurious effect or influence on the verdict.” Pet. App.

158, The Ninth Circuit correctly held that the declaration is admissible

under Federal Rule of Evidence 606(b), which permits testimony about the

consideration of extraneous evidence during jury deliberations. Pet. App. 31.

After citing Fields and Crittenden, the Ninth Circuit held that “we again find
it unnecessary to decide the question of whether use of Bible verses during
deliberation constitutes misconduct because the state court could have
reasonably concluded that any error did not prejudice the jury’s verdict.” Pet.

App. 33. The court applied Brecht and held that “[weighing the

overwhelming weight of th[e] aggravating evidence against the purported

32

juror misconduct, . . . any misconduct was harmless.” Pet. App. 34. The

Ninth Circuit erred by denying relief for lack of prejudice under Brecht and
by not applying the Mattox-Remmer framework to his claim.
Kipp adequately raised his Mattox-Remmer argument in state and
federal court, notwithstanding the sentence in the Ninth Circuit's opinion
stating that “Kipp acknowledges that any juror misconduct must have had a
‘substantial and injurious effect on the verdict.’ See Fields, 503 F.3d at

781 . . . .” Pet. App. 33. This is the language of the Brecht test applicable to

federal habeas claims unless the claim involves a structural error or has its
own specific prejudice test. Brecht, 507 U.S. at 638. Although Kipp argued in

his opening Ninth Circuit brief that he was prejudiced under Brecht, he also
argued that the district court erred in holding that he had to satisfy Brecht in

state court. Ninth Circuit docket 11 at 64-67. He argued that “Brecht is a
different, and more onerous, standard than would have applied to the
California Supreme Court’s review of Kipp’s claim of juror misconduct in the

first instance.” Id. at 65. He said that “[c]learly established federal law
required the state court to presume that Kipp was prejudiced by the jurors’

consideration of extraneous information unless the government came forward
with evidence to rebut that presumption,” and the state court’s denial of relief

ran afoul of 28 U.S.C. § 2254(d). Id. at 65-67 (citing Mattox and Remmer).

33

In a supplemental brief, Kipp noted that the Ninth Circuit’s en banc
opinion in Godoy was published after he filed his opening brief; explained

that “Godoy held that Mattox . . . and Remmer . . . clearly establish the

framework that applies to a claim that an improper external influence on a
jury violated the defendant’s constitutional rights”; argued that MattoxRemmer applied to his juror misconduct claim; showed that California courts

apply the same framework10; noted that in state court, Respondent did not
rebut the presumption of prejudice with “other, contrary evidence,” as

required by Mattox-Remmer, but instead argued that the juror declaration
was not credible based on the declaration itself (see Ninth Circuit docket 55);

showed that § 2254(d) did not bar relief; and argued that the Ninth Circuit
should grant relief on de novo review under Mattox-Remmer because the
Bible reading was “possibly prejudicial” and Respondent did not rebut the

presumption of prejudice with “other, contrary evidence.” Ninth Circuit
docket 54 at 3-10. The application of the Mattox-Remmer rule to Kipp’s claim

was also a focus of discussion at oral argument. Ninth Circuit docket 68.
Kipp adequately presented and preserved his claim for review here.

10 See, e.g., Godoy, 861 F.3d at 962 & n.2, 964 n.3; People v. Williams,
148 P.3d 47, 79 (Cal. 2006).

34

Applying the Mattox-Remmer rule to Kipp’s case, as Oliver and other
cases discussed above show, bringing a Bible into the jury room and reading

passages from it to other jurors during capital-sentencing deliberations
introduced an impermissible external influence on the deliberations and

verdict and constitutes juror misconduct. Williams, 148 P.3d at 79 (stating

that the California Supreme Court has held and the Attorney General
concedes that “reading aloud from the Bible or circulating biblical passages

during deliberations is misconduct”). The jury violated the instructions to

decide the case based on “the evidence received in this trial and not from any

other source” and to refrain from “consult[ing] reference works.” Pet. App.

290-291; Oliver, 541 F.3d at 339 (“The Bible passages in question here were
not part of the law and evidence that the jury was to consider in its

deliberations.”).

Under step one of Mattox-Remmer, the misconduct was “possibly
prejudicial” because it had a tendency to be injurious to Kipp (i.e., it raised a

credible risk of influencing the verdict). The phrase “an eye for an eye”
“licenses death as a punishment for any murder, a position rejected by the

Supreme Court as contrary to the Constitution” and its mandate of
individualized capital sentencing. Robinson, 444 F.3d at 232 (King, J., dis.
from denial of rehearing en banc). Moreover, the prosecutor dramatically

emphasized Kipp’s statements expressing a belief in Satan in his guilt and

35

penalty closing arguments, where the jury heard the statements for the first

time. “In Christian theology, Satan ‘is the great enemy of man and
goodness.’” Webster’s New World College Dictionary, at p. 1192 (3d ed. 1996).

The Bible-reading occurred before a verdict was reached, apparently when
the jurors were at an impasse, because Rivers explains that the juror brought

in the Bible to “help [jurors] in making a decision.” See supra at 19; see also
id. (Rivers tells trial investigator jurors were split over five-to-six votes before

reaching verdict); Fields, 503 F.3d at 798 (Berzon, J., dissenting). Finally,
the jury deliberated for a little over three full days before reaching a death

verdict. Lengthy deliberations suggest a difficult case. United States v.

Velarde-Gomez, 269 F.3d 1023, 1036 (9th Cir. 2001) (en banc); see also
Parker, 385 U.S. at 365 (emphasizing that “the jurors deliberated for 26
hours” in finding prejudice from external influence).

Moving to step two of the Mattox-Remmer framework, Respondent did
not rebut the presumption of prejudice in state or federal court with “other,

contrary evidence” showing there is no reasonable possibility that the Bible
reading influenced the death verdict. The state court could not reasonably

deny Kipp’s claim, and Kipp is entitled to relief on de novo review, or at least
to an evidentiary hearing if the Court is not inclined to grant relief on the

current record. Tanner, 483 U.S. at 120 (“The Court’s holdings requir[e] an
evidentiary hearing where extrinsic influence or relationships have tainted

36

the deliberations . . . .”); Schriro v. Landrigan, 550 U.S. 465, 468, 474, 481

(2007); Hurst v. Joyner, 757 F.3d 389, 398, 400 (4th Cir. 2014); Barnes v.
Joyner, 751 F.3d 229, 251, 253 (4th Cir. 2014).
Although the State’s failure to rebut the presumption of prejudice

under Mattox-Remmer should have resulted in Kipp obtaining relief or at

least an evidentiary hearing on his claim, see, e.g., Godoy, 861 F.3d at 959,

970, the Ninth Circuit applied Brecht to deny relief. Some Courts of Appeals
that have recognized Bible-reading in deliberations as an external influence
and applied Mattox-Remmer s presumption of prejudice rule in that situation
have nevertheless required the more onerous Brecht standard to be met as a

condition to granting relief, and others have not. Compare Oliver, 541 F.3d
at 341 (applying Brecht) with McNair, 416 F.3d at 1307-1309 (not applying
Brecht but denying relief because the State “easily carried its burden of

rebutting the presumption of prejudice” under Mattox-Remmer).

The fact that “[n]ot all circuits are in agreement regarding the
appropriate standard for determining prejudice when a jury improperly

consults the Bible during deliberations,” Oliver, 541 F.3d at 341 n.13, is
another reason to grant the writ in Kipp’s case. The better rule is that Brecht
should not apply where, as here, the state court unreasonably denies relief

under Mattox-Remmer and the petitioner’s claim is reviewed de novo in

federal habeas. Although Brecht applies to claims of nonstructural error that
37

do not have their own built-in prejudice test, e.g., Confrontation Clause
claims,11 it does not apply to claims that have an integrated prejudice

component that is less onerous to meet than Brecht, e.g., claims that counsel

had a conflict of interest under the Sixth Amendment. See Mickens v. Taylor,
535 U.S. 162, 166-167, 174-175 (2002).
Even assuming, contrary to Mattox and Remmer, that the Ninth Circuit

properly applied the Brecht test to Kipp’s claim, it erred in holding that any

misconduct was harmless under Brecht. Although the Ninth Circuit
acknowledges elsewhere in its opinion that “[t]he jury deliberated for about

three days” at penalty and “[t]he defense presented a substantial mitigation

case,” 971 F.3d at 871, 873, it overlooks these facts in concluding that “any

[juror] misconduct” “was harmless.” Id. at 882. The three days of
deliberations undermine the Ninth Circuit’s conclusion that the aggravating

evidence was “overwhelming” and shows this was a close case. Id.

The Ninth Circuit’s prejudice analysis also overlooks the import of its
decision the same day in Kipp’s separate appeal challenging his Orange

County convictions and death judgment for the murder and attempted rape of

Antaya Howard, which was entered more than a year before voir dire began
in his Los Angeles County case. See Kipp, 971 F.3d 939. At the guilt-phase

11 See, e.g., Winzer v. Hall, 494 F.3d 1192, 1201 (9th Cir. 2007).
38

in Orange County, the prosecution presented evidence that Kipp raped and
murdered Tiffany Frizzell in Los Angeles County. Id. at 943. At the penalty­

phase in Los Angeles County, the prosecution presented evidence that Kipp
had murdered and attempted to rape Howard. Kipp, 971 F.3d at 870.
The Ninth Circuit granted guilt relief in the Orange County case
because the Frizzell evidence was impermissible propensity evidence

“expressly relied on” by the prosecution “to prove the necessary intent to rape
and intent to murder while attempting to rape” Howard. Kipp, 971 F.3d at

957. The court stressed that “[b]ased solely on the evidence presented about
the Howard crime, the jury could have at most inferred that Kipp was with

Howard the night in question, and they might have had sex.” Id. Yet in
finding any errors in Los Angeles County harmless, the court emphasizes the
aggravating evidence before the jury of Kipp “brutally raping and killing . . .

Howard,” Pet. App. 34, charges its other opinion acknowledges were not
lawfully proven and which do not weigh in favor of finding prejudice. Porter

v. McCollum, 558 U.S. 30, 42 (2009) (per curiam). The Ninth Circuit’s
circular reasoning undermines its analysis and conclusion.

Fields and Crittenden are unlike Kipp’s case. In Fields, a juror
conducted research on the Bible outside the jury room, then brought to

penalty deliberations a list of notes for and against the death penalty. 503
F.3d at 777 & n.15. In Kipp’s case, by contrast, a juror brought a Bible into

39

the jury room and read directly from it to other jurors while the jury was at

an impasse. The penalty deliberations in the Fields case lasted about one full
day, 503 F.3d at 777-778, much shorter than the three days in Kipp’s case,

suggesting that the verdict was not as close in Fields. Indeed, Fields’s case
was markedly more aggravated, involving violent attacks against five victims

during a three-week, “one-man crime wave” that began shortly after Fields’s

release on parole for manslaughter. Id. at 760-761. Crittenden held, after an
evidentiary hearing, that “the bare showing that a juror read a religious text

outside the jury room does not establish prejudice.” 624 F.3d at 973-974.

CONCLUSION
For the reasons set forth above, the petition for a writ of certiorari

should be granted.
Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: May 18, 2021
MARK R. DROZDOWSKI*
CELESTE BACCHI
Deputy Federal Public Defenders
Attorneys for Petitioner
* Counsel of Record

40

